  DEPARTMENT OF HOMELAND SECURITY

      Office of Inspector General


      Evaluation of DHS’ Security Program and
      Practices For Its Intelligence Systems For
                  Fiscal Year 2006



               Unclassified Summary




      Office of Information Technology


OIG-06-59                             August 2006
                                                                      Office of Inspector General

                                                                      U.S. Department of Homeland Security
                                                                      Washington, DC 20528




                                     Office of Inspector General
          Evaluation of DHS’ Security Program and Practices For Its
                            Intelligence Systems For Fiscal Year 2006
                                            OIG-06-59


We conducted an evaluation of Top Secret/Sensitive Compartmented Information (TS/SCI) systems
under the Department of Homeland Security’s (DHS) purview. In accordance with Federal
Information Security Management Act requirements, our evaluation focused on DHS’ information
assurance posture, including the policies and procedures in place for the department’s intelligence
systems. We performed our work at the program and organizational component levels, focusing on
the system security controls for a select sample of intelligence systems, according to the
requirements in Director of Central Intelligence Directive 6/3, Protecting Sensitive Compartmented
Information Within Information Systems.

The objective of our evaluation was to determine whether DHS’ is adequately and effectively
protecting TS/SCI information and the systems that support DHS’ intelligence operations and assets
from unauthorized access, use, disclosure, disruption, modification, or destruction. As part of our
evaluation, we conducted detailed system security vulnerability assessments of eight of the
department’s intelligence systems and evaluated the department’s privacy policies as they apply to
intelligence systems. Fieldwork was conducted from May through August 2006. (OIG-06-59,
August 2006, IT)
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to Department of
Homeland Security, Washington, DC 20528, Attn: Office of Inspector
General, Investigations Division – Hotline. The OIG seeks to protect the
identity of each writer and caller.
